          U.S. ENVIRONMENTAL PROTECTION AGENCY
          OFFICE OF INSPECTOR GENERAL



                                         Catalyst for Improving the Environment


Site Visit Report




        American Recovery and
        Reinvestment Act Site Visit of
        Sanitary Sewer System
        Improvements, Ingenio Community,
        Toa Baja, Puerto Rico
        Report No. 11-R-0233

        May 24, 2011
Report Contributors:                               Jean Bloom
                                                   Roopa Batni
                                                   Jessica Knight




Abbreviations

DBA           Davis-Bacon Act
EPA           U.S. Environmental Protection Agency
OIG           Office of Inspector General
PRASA         Puerto Rico Aqueduct and Sewer Authority


Cover photo:	 Sanitary sewer system improvements vacuum pump station site,
              Ingenio Community, Toa Baja, Puerto Rico. (EPA OIG photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                             11-R-0233
                                                                                                        May 24, 2011
                       Office of Inspector General


                       At a Glance
                                                                          Catalyst for Improving the Environment


Why We Did This Review              American Recovery and Reinvestment Act
The U.S. Environmental
                                    Site Visit of Sanitary Sewer System
Protection Agency (EPA), Office     Improvements, Ingenio Community, Toa Baja,
of Inspector General, conducts      Puerto Rico
site visits of American Recovery
and Reinvestment Act of 2009         What We Found
(Recovery Act) funded clean
water and drinking water
                                    We conducted an unannounced site visit of the Sanitary Sewer System
projects. We selected the project
                                    Improvements Project in the Ingenio Community, Toa Baja, Puerto Rico, in
in the Ingenio Community, Toa
                                    August 2010. We toured the project site and interviewed personnel from
Baja, Puerto Rico, for review.
                                    PRASA, its project management consultants and subcontracted field inspectors,
                                    the Puerto Rico Environmental Quality Board, and the prime contractor and
Background                          one subcontractor. We reviewed documentation related to Recovery Act
                                    requirements. Our site visit found ongoing construction activity in four separate
The Ingenio Community, Toa          locations, all related to the sanitary sewer system improvement project. The
Baja, project received              main area of construction activity was located at the vacuum pump station.
$12,705,360 of Recovery Act
funds under the Clean Water         During our review, PRASA informed us of a potential Buy American
State Revolving Fund program—       noncompliance and the actions being taken to resolve the matter. Also, we
$910,832 for principal              identified two subcontract agreements that did not contain the Recovery Act
forgiveness and a $11,794,528       requirements. The prime contractor submitted a signed amendment for only one
loan. The loan agreement is         of the two subcontracts, stating that the other subcontractor was no longer
between the Puerto Rico             working on the project. Nonetheless, the prime contractor should obtain that
Infrastructure Finance Authority,   amendment from the second subcontractor.
acting on behalf of the
Commonwealth of Puerto Rico,
                                     What We Recommend
and the Puerto Rico Aqueduct
and Sewer Authority (PRASA).
                                    We recommend that the Regional Administrator, Region 2, follow up with
                                    PRASA on the resolution of the potential Buy American noncompliance issue.
                                    We also recommend that the Regional Administrator require PRASA to verify
                                    that each of the prime contractor’s subcontract agreements include the
                                    applicable Recovery Act clauses and ensure the requirements were adhered to.
For further information, contact    Region 2 and PRASA agreed with the findings and recommendations. The
our Office of Congressional,        Puerto Rico Environmental Quality Board did not provide any comments on
Public Affairs and Management
at (202) 566-2391.
                                    our findings and recommendations.

The full report is at:
www.epa.gov/oig/reports/2011/
20110524-11-R-0233.pdf
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL




                                           May 24, 2011

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act
          Site Visit of Sanitary Sewer System Improvements,
          Ingenio Community, Toa Baja, Puerto Rico
          Report No. 11-R-0233


FROM:          Arthur A. Elkins, Jr.
               Inspector General

TO:	           Judith A. Enck
               Regional Administrator, Region 2


This is our report on the subject site visit conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency (EPA). The report summarizes the results of our site visit
of the Sanitary Sewer System Improvements Project in the Ingenio Community, Toa Baja,
Puerto Rico, funded under the American Recovery and Reinvestment Act of 2009 (Recovery
Act).

We performed this site visit as part of our responsibility under the Recovery Act. The purpose of
our site visit was to determine whether the Puerto Rico Aqueduct and Sewer Authority complied
with selected requirements of the Recovery Act pertaining to the Clean Water State Revolving
Fund program. The loan agreement is between the Puerto Rico Infrastructure Finance Authority,
acting on behalf of the Commonwealth of Puerto Rico, and the Puerto Rico Aqueduct and Sewer
Authority. The Ingenio Community project received $12,705,360 in Recovery Act funds under
the Clean Water State Revolving Fund program.

The estimated direct labor and travel costs for this report are $95,987.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days, or by August 22, 2011. You should include a corrective action
plan for agreed-upon actions, including milestone dates. Your response will be posted on the
Office of Inspector General’s public website, along with our memorandum commenting on your
response. Your response should be provided as an Adobe PDF file that complies with the
accessibility requirements of Section 508 Rehabilitation Act of 1973, as amended. The final
response should not contain data that you do not want to be released to the public; if your
response contains such data, you should identify the data for redaction or removal. We have no
objection to further release of this report to the public. The report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or Robert
Adachi, Director of Forensic Audits, at (415) 947-4537 or adachi.robert@epa.gov.
American Recovery and Reinvestment Act                                                                                         11-R-0233
Site Visit of Sanitary Sewer System Improvements,
Ingenio Community, Toa Baja, Puerto Rico


                                      Table of Contents 

   Purpose........................................................................................................................   1


   Background .................................................................................................................      1


   Scope and Methodology.............................................................................................                1


   Results of Site Visit.....................................................................................................        2


           Buy American Requirements................................................................................                 2

           Wage Rate Requirements ....................................................................................               2

           Contract Procurement ..........................................................................................           2     

           Limit on Funds and Reporting Requirements.......................................................                          3


   Recommendations ......................................................................................................            3


   Agency, Recipient, and Subrecipient Responses to Draft Report .........................                                           3


   OIG Comment on Responses ....................................................................................                     4


   Status of Recommendations and Potential Monetary Benefits..............................                                           5




Appendix
   A       Distribution .........................................................................................................    6

Purpose
            The purpose of our unannounced site visit was to determine the Puerto Rico
            Aqueduct and Sewer Authority’s (PRASA’s) compliance with selected
            requirements of the American Recovery and Reinvestment Act of 2009
            (Recovery Act) pertaining to the Clean Water State Revolving Fund Program.

Background
            PRASA received a $12,705,360 loan from the Puerto Rico Infrastructure Finance
            Authority. The purpose of the loan was to fund sanitary sewer system
            improvements for the Ingenio and Villa Calma Communities and Puerto Rico
            Road 867. The loan agreement includes $910,832 in principal forgiveness. The
            balance of the loan has a 20-year maturity with an interest rate of 2 percent per
            annum.

Scope and Methodology
            Due to the time-critical nature of the Recovery Act requirements, we did not
            perform this site visit in accordance with generally accepted government auditing
            standards. Specifically, we did not determine whether previous audit work was
            completed in this area, nor did we assess PRASA’s internal controls. As a result,
            we do not express an opinion on the adequacy of PRASA’s internal controls or its
            compliance with all federal, state, or local requirements.

            We conducted our site visit during the weeks of August 9 and August 16, 2010.
            During our visit, we:

               1. 	 Toured the construction project
               2. 	 We interviewed personnel from PRASA, its project management
                    consultants and subcontracted field inspectors, the Puerto Rico
                    Environmental Quality Board, and the prime contractor including its
                    employees and managers and one subcontractor.
               3. Reviewed documentation maintained by PRASA and the prime contractor
                    on the following matters:
                        a. 	 Buy American requirements under Section 1605 of the Recovery
                             Act
                        b. 	 Wage Rate requirements (Davis-Bacon Act (DBA) under Section
                             1606 of the Recovery Act)
                        c. Contract procurement
                        d. 	 Limit on funds and reporting requirements under Sections 1604
                             and 1512 of the Recovery Act.




11-R-0233                                                                                   1
Results of Site Visit
            We were informed of a potential Buy American noncompliance and identified an
            issue with procurement requirements. We summarize the results of our review
            below.

            Buy American Requirements

            We are unable to conclude whether the Buy American requirement for the project
            has been satisfied. During our visit, PRASA expressed a concern regarding a
            potential Buy American noncompliance and is working with interested parties to
            resolve the matter. As a result, we did not complete our planed work in this area.

            Wage Rate Requirements

            No issues came to our attention that would require further action, although we did
            identify one instance of noncompliance with DBA requirements regarding the
            inappropriate use of wage rates. Contractors certify compliance with DBA rates
            by signing weekly certified payrolls, and we reviewed certified payrolls and
            verified wages with the applicable DBA rates to determine compliance. We
            inquired with the contractor and PRASA about the identified noncompliance. The
            prime contractor acknowledged the noncompliance and corrected the affected
            employee’s pay rate. We audited a total of three payroll periods and performed a
            cursory review of the certified payrolls for the entire month of July, and found
            that the identified employee did not have any further instances of DBA
            noncompliance. Thus, no further action is needed.

            Contract Procurement

            We did not identify any issues or concerns with contract procurement or unfair
            bidding practices. The construction contract was competitively awarded based on
            public advertisement. Nineteen bids were received and, based on the
            recommendation of its bid board, PRASA awarded the contract to the lowest
            responsive, responsible bidder. Unsuccessful bidders confirmed their participation
            in the bidding process.

            The prime contract requires that each subcontract include the Recovery Act
            requirements. We reviewed the prime contractor’s two subcontracts and found no
            applicable Recovery Act requirements or clauses for either. We made PRASA and
            the prime contractor aware of this issue. We subsequently received one of two
            signed amendments that included the Recovery Act requirements. However, the
            prime contractor did not submit a signed amendment for the second subcontract,
            stating that the subcontractor was no longer working on the project. Nonetheless,
            the subcontractor was required to comply with Recovery Act requirements for
            services performed on the project. Therefore, the prime contractor should obtain
            that amendment from the subcontractor.



11-R-0233                                                                                    2
            Limit on Funds and Reporting Requirements

            We did not identify any issues of concern. Under Section 1604 of the Recovery
            Act, no funds can be used for any casino, other gambling establishment,
            aquarium, zoo, golf course, or swimming pool. We visited the project site,
            reviewed the prime contract to verify it contained the appropriate language to
            comply with Section 1604, and performed a limited review of the prime
            contractor’s general ledger and supporting invoices to ensure compliance with
            Section 1604 of the act.

            We did not identify any issues regarding PRASA’s ability to meet Recovery Act
            financial management and reporting requirements. We interviewed PRASA
            personnel to obtain an understanding of the reporting process and reviewed an
            example of the tables that include the Section 1512 reporting information
            submitted by PRASA to the Puerto Rico Environmental Quality Board and the
            Puerto Rico Department of Health.

Recommendations
            We recommend that the Regional Administrator, Region 2:

                1.	 Follow up with PRASA on the resolution of the potential Buy American
                    noncompliance issue.

                2. 	 Require PRASA to verify that each of the prime contractor’s subcontract
                     agreements include the applicable Recovery Act clauses and ensure the
                     requirements were adhered to.

Agency, Recipient, and Subrecipient Responses to Draft Report
            We issued a discussion draft on March 22, 2011. No formal written comments
            were received or required. We held an exit conference on March 31, 2011, with
            PRASA, the Puerto Rico Environmental Quality Board, and the region to obtain
            their verbal comments on the discussion draft.

            The discussion draft report contained two recommendations. PRASA agreed with
            our findings and informed us of actions it is taking. Regarding the potential Buy
            American noncompliance issue, PRASA stated the issue remains a potential
            noncompliance, and PRASA continues to work with interested parties to resolve
            the matter. PRASA also informed us it is working with the prime contractor on
            obtaining the signed contract amendment, which would include the appropriate
            Recovery Act requirements and clauses. At the time of our meeting, PRASA had
            requested, but not received, the signed amendment.




11-R-0233                                                                                      3
            The Puerto Rico Environmental Quality Board did not comment on our findings
            or recommendations. However, the board informed us that the loan amount of
            $11,794,529 and the principal forgiveness amount of $910,831 needed to be
            adjusted. The correct amounts are $11,794,528 for the loan and $910,832 for
            principal forgiveness.

            The region did not comment on our findings or recommendations at the exit
            conference. On April 15, 2011, the region sent an e-mail stating it agreed with our
            recommendations.

OIG Comment on Responses

            We verified the loan and principal forgiveness amounts to the loan and project
            funding documents. We adjusted the report accordingly.




11-R-0233                                                                                     4
                            Status of Recommendations and
                              Potential Monetary Benefits

                                                                                                                       POTENTIAL MONETARY
                                              RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                           Planned
 Rec.   Page                                                                                              Completion   Claimed    Agreed To
 No.     No.                        Subject                       Status1          Action Official           Date      Amount      Amount

  1      3     Follow up with PRASA on the resolution of the         O          Regional Administrator,
               potential Buy American noncompliance issue.                            Region 2

  2      3     Require PRASA to verify that each of the prime        O          Regional Administrator,
               contractor’s subcontract agreements include the                        Region 2
               applicable Recovery Act clauses and ensure the
               requirements were adhered to.




         O = recommendation is open with agreed-to corrective actions pending
         C = recommendation is closed with all agreed-to actions completed
         U = recommendation is undecided with resolution efforts in progress




11-R-0233                                                                                                                                     5
                                                                              Appendix A

                                    Distribution
Office of the Administrator
Regional Administrator, Region 2
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Region 2
Public Affairs Officer, Region 2
Executive Infrastructure Director, Puerto Rico Aqueduct and Sewer Authority
Chief of Infrastructure Projects, Puerto Rico Environmental Quality Board
Director, Caribbean Environmental Protection Division, Region 2




11-R-0233                                                                              6
